WAIV E

11
:
_1supreme Court, U.S.
FILED

AUG 1 3 2021
SUPREME COURT OF THE UNITED ST
No.

TFACE OF THE CLERK

21-66

PBS Coals, Inc. and Penn Pocahontas Cle!
(Petitioner)

Commonwealth of Pennsylvania, Departni
V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
®

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Eric J. Jackson

Date:

8/13/21

Digitally signed by Eric J. Jackson
- Date: 2021.08.13 08:36:24 -04'00'

(Type or print) Name Eric
J Jackson

O

Mr.

Ms.

0 Mrs.

0 Miss

Firm

Office of Chief Counsel, Pennsylvania Department of Transportation

Address

301 5th Ave., Suite 210

City & State

Pittsburgh, PA

Phone

412-565-7555

Zip 15222
Email erjackson@pa.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Vincent J. Barbera, Esq.
cc:

COMMONWEALTH OF PENNSYLVANIA
GOVERNOR'S OFFICE OF GENERAL COUNSEL

August 13, 2021

Supreme Court
Attn: Clerk's Office
1 First Street
NE, Washington, D.C. 20543

Re:

PBS Coals, Inc. and Penn Pocahontas Coal Co. vs. PennDOT
Docket No. 21-66

Dear Sir or Madam,
Enclosed please find the Department of Transportation's Waiver regarding the abovecaptioned case.
Please contact me should you have any questions or concerns.
Sincerely,

Eric/j. jaclosovv
Eric J. Jackson,
Assistant Chief Counsel
EJJ:kew
Enclosures: as stated
cc:
Vincent J. Barbera, Esquire

RECEIVED
AUG 1 7 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.
Department of Transportation I Office of Chief Counsel I Western Region
301 5th Avenue, Suite 210 I Pittsburgh, PA 15222 1 412.565.7555 I Fax: 412.565.7778 I www.penndot.gov

